NEA-OIG Report
No. R-13-02
                                   National Endowment for the Arts
                                                   Evaluation Report


                                                  Table of Contents

Results of Evaluation .................................................................................... 1

Problem Areas............................................................................................... 2
   Problem Area 1: The agency did not measure patching status. ..................................... 2

   Problem Area 2: The agency did not have an automated process to fully patch all
   systems............................................................................................................................ 3

Exit Conference............................................................................................. 4

Objective, Scope and Methodology............................................................. 4




                                                                -i-
                        National Endowment for the Arts
                                   Evaluation Report


                              Results of Evaluation
The purpose of this evaluation was to answer the question:

       Has the NEA implemented an effective, comprehensive system maintaining patch
       levels?

No. The NEA has not implemented an effective, comprehensive system maintaining
patch levels.

The process for patching NEA systems is ineffective and exposes the Agency’s
information and systems to significant risk. On November 15, 2012 we reviewed the
patch status of 194 machines and found that:

   x   All but four systems were missing High or Critical Severity patchesa High
       Severity patch is a software change designed to prevent intruders from being able
       to run code of their choice on the network or elevating their privileges to take
       control of agency systems.
   x   11,176 High or Critical Severity patches were missing on agency systems.
   x   An average of 58 High or Critical Severity patches were missing from each
       system.
   x   43 systems (22%) were missing patches that had been released one year ago or
       prior.
   x   Nine systems (5%) were missing patches released in 2007 or earlier.
   x   An average of 29 High or Critical severity patches for third-party (non-Microsoft)
       software were missing from each system.

When software vendors identify problems with their applications or operating systems,
they create and release updates to the software to resolves these issues. These updates are
known as ‘patches.’ These patches are made available to the public, who install these
patches to rectify the problems they are intended to solve.

The majority of patches released today are designed to correct previously-identified
security flaws. Systems without these patches are vulnerable to these exploits, which
could result in an intrusion by malicious individuals. Vulnerabilities defined as High or
Critical severity identify those with the highest risk to the systems in question. Once a
patch is released, the risk increases for unpatched systems, because it has been publically
announced that a flaw is present, and the software patch can be analyzed to precisely
identify the nature of the security flaw. Malicious parties use this information to create
new exploits if they aren’t available already.

In order to manage and reduce the risk to the organization, those responsible for
managing its systems must continually track the patched status of those systems, and


                                           -1-
                        National Endowment for the Arts
                                   Evaluation Report


deploy patches as soon as they are made available. If systems are allowed to remain
unpatched, the ease with which they can be attacked can nullify all other security
measures in place at the organization. Patching systems is a primary means of securing
systems, and despite potential staff and marketing assertions to the contrary, there are no
effective substitutes for this basic security measure.

The patching process for NEA systems was ineffective because the agency did not
measure its patch status, and it did not have an automated process to fully patch all
systems. These problem areas will be discussed in detail in the rest of this report.



                                   Problem Areas

                                   Problem Area 1:
                      The agency did not measure patching status.


The agency did not measure the patching status of its systems. This lack of monitoring
was partially responsible for the fact that systems were not patched. Our analysis of 194
workstations determined that High or Critical severity patches were missing from 190, or
98% of all systems tested. On average, each system was missing 58 High or Critical
severity patches.

Effective management is only possible with consistent measurement. Because the agency
did not monitor the patch status of its systems, it could not manage the patching process,
or by extension, the security of its network.

Systems with missing patches expose more than just a single computer to risk, but instead
they expose all data and systems on the network to risk. An exploited system serves as
the entry point into the network for an attacker. Once a foothold is gained, attackers can
explore and potentially exploit all systems on that network. One weak link effectively
circumvents the other security applied to the network perimeter or the application itself.

In order to execute the mission of the agency, senior management must remain informed
of risks to their underlying systems. Because they were not regularly informed with an
accurate picture of the agency’s information security status, they were not aware of the
risks to the confidentiality, integrity, and availability of agency data and systems.

Recommendation 1: Implement a specialized software tool to scan the patch status of all
agency equipment on a weekly or greater basis. This tool should be distinct from the tool
used to patch systems.


                                            -2-
                        National Endowment for the Arts
                                  Evaluation Report


Recommendation 2: Report patching status monthly to agency executive management.




                                 Problem Area 2:
      The agency did not have an automated process to fully patch all systems..


As of November 15, 2012, the agency was missing 11,176 High or Critical patches on its
systems. Due to the sheer number of patches released and the labor required to manually
apply them, it is impossible to rely on manual processes to apply patches in a timely
manner, and any process that is unable to automatically patch third-party software in
insufficient to protect the agency’s data. While Microsoft provides robust, free tools to
apply patches to its own software, on its own this software is unable to provide automated
patching for third-party software. Third-party software includes common items such as
Mozilla Firefox, Adobe Acrobat, and Oracle Java. Of the 194 systems analyzed, 182
were missing High or Critical patches for third-party software. On average, each system
was missing 29 patches for third-party software. Attacks of vulnerable third-party
software are one of the primary vectors of intrusion.

High or Critical severity patches for all software should be applied agency-wide within
days of release by their manufacturer. To achieve the best protection, these patches
should be installed for most systems on the same day a patch is released, because exploits
are generated quickly from the information provided as part of the patch. Any delay
beyond the release date of a patch increases the risk exposure. For this reason, Microsoft
preconfigures Windows operating systems to download and install available patches
every night.

Agency staff should be protected from malicious content encountered while browsing the
Internet or received via email. Unpatched systems are missing this basic level of
protection, and greatly increase the risk of system-wide compromise. Even new builds of
systems will be missing patches, and should be fully patched before being brought online.

The agency’s current patching method demands significant resources because it is not
fully automated. Because it does not immediately apply all necessary High or Critical
severity patches, the agency is operating under a high level of risk. As a result, the
agency does not have the most basic level defense to secure its systems and its network.
The current patching process does not effectively protect the agency’s information or
systems.

Recommendation 3: Implement a specialized software tool to automatically patch all
agency systems.


                                           -3-
                        National Endowment for the Arts
                                  Evaluation Report


Recommendation 4: Patch all vulnerable software on all systems.

Recommendation 5: Apply all High or Critical severity patches on the day of release.

Recommendation 6: Fully patch all new systems as part of the build process.



                                  Exit Conference
An exit conference was held with ITM officials on February 11, 2013. ITM officials
concurred with our findings and recommendations.



                    Objective, Scope and Methodology
Objective:
       Has the NEA implemented an effective, comprehensive system maintaining patch
       levels?

Scope:
       The scope of this evaluation included all servers, workstations, and other network
       equipment providing services and security on NEA network.


Methodology:
1. Use Nessus with current definitions to perform an authenticated scan of all
   infrastructure and endpoints related to the NEA network.
2. Identify systems that cannot be scanned due to technical or policy issues, and if
   possible, identify a means of scanning these systems.
3. Analyze vulnerabilities to remove false positives, and classify findings to identify
   trends and the causes of unpatched vulnerabilities.




                                           -4-
